TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Wage and Investment Division
                        Compliance Function Should Link
                        Annual Performance to Long-Term
                        Goals and Improve Data Collection



                                         December 2005

                              Reference Number: 2006-40-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 23, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Wage and Investment Division Compliance
                               Function Should Link Annual Performance to Long-Term Goals and
                               Improve Data Collection (Audit # 200540020)

 This report presents the results of our review to determine if the Wage and Investment (W&I)
 Division Compliance function has taken actions in response to previous Treasury Inspector
 General for Tax Administration (TIGTA) reports by developing long-term goals and related
 measures.
 We issued two audit reports1 in August 2003 recommending the Commissioner, W&I Division,
 finalize the long-term goals and related measures that were being developed in the W&I Division
 Compliance function Concept of Operations.2

 Synopsis
 The W&I Division Compliance function reported that it had completed actions on the prior
 TIGTA reports by developing long-term strategic goals.3 However, the W&I Division
 Compliance function did not directly link these long-term strategic goals to its annual
 performance goals and measures. This would have helped the Compliance function demonstrate


 1
   More Information Is Needed to Determine the Effect of the Automated Underreporter Program on Improving
 Voluntary Compliance (Reference Number 2003-40-180, dated August 2003) and More Information Is Needed to
 Determine the Effect of the Discretionary Examination Program on Improving Service to All Taxpayers (Reference
 Number 2003-40-185, dated August 2003).
 2
   The Concept of Operations is a framework that includes a defined vision, strategic goals, operational themes, and
 program capabilities. It identifies key organizational concepts required to achieve the organization’s vision.
 3
   The corrective actions were completed for the Automated Underreporter Program and the Discretionary Exam
 Program reports identified in footnote 1 in July 2004 and December 2004, respectively.
                                 The Wage and Investment Division
                        Compliance Function Should Link Annual Performance
                          to Long-Term Goals and Improve Data Collection


annual progress in meeting the long-term goals. It would also have helped determine whether
the program goals and measures were on track and, if not, help identify and correct deficiencies.
The Government Performance and Results Act of 19934 requires that agency strategic plans
identify long-term goals, outline strategies to achieve these goals, and develop annual program
goals and measures to demonstrate the results of these activities.
In the Fall of 2004, the Office of the Chief Financial Officer initiated efforts to develop overall
long-term Internal Revenue Service (IRS) performance goals to directly support its mission and
strategic goals as set forth in the IRS’ 2005–2009 Strategic Plan. As part of this process, the
W&I Division submitted supporting program information to assist in developing the long-term
performance goals affecting its programs, which included the Compliance function.
In addition, the W&I Division Compliance function did not have the necessary data to monitor
the Automated Underreporter (AUR) Program’s5 progress toward improving voluntary
compliance. We had reported that the AUR Program did not have sufficient information to
address the causes for discrepancies. We also reported that while the AUR Program was able to
capture the yield from cases by category, it could not identify the costs associated with working
those cases by category. Therefore, management did not know if it cost more to work some
cases than others, or if the cost to work those cases exceeded the expected yield.
The W&I Division Compliance function has not yet taken the necessary steps to enhance the
AUR Program’s ability to track information on the causes for discrepancies identified during
case reviews, how these cases were resolved, or the costs associated with these reviews.
Knowing this information could help Compliance function management identify what IRS
process or systemic change might eliminate or reduce future AUR Program discrepancies or
identify opportunities to educate taxpayers on how to avoid discrepancies and report income and
deductions correctly. Although the W&I Division Compliance function has not established
needed closing/reason codes to capture the causes for discrepancies and how the cases were
resolved, it has enhanced the inventory selection process to reduce the number of screened out
cases and improve case assessments.
The W&I Division Compliance function originally responded to the prior TIGTA report by
stating that it planned to partner with the Modernization and Information Technology Services
(MITS) organization to develop a comprehensive management information system. The MITS
organization, with the assistance of the W&I Division Compliance function, developed a
“white paper” which outlined the justification for the desired system. While the Compliance
function has initiated efforts to obtain a new AUR Program management information system, it

4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
5
  The IRS’ annual matching program used to identify taxpayers that misreport their income. The AUR Program
compares the information reported by third parties, such as employers and banks, with what was reported by
taxpayers on their individual income tax returns.
                                                                                                             2
                               The Wage and Investment Division
                      Compliance Function Should Link Annual Performance
                        to Long-Term Goals and Improve Data Collection


is doubtful the established milestone date can be met. We believe the W&I Division Compliance
function should continue its efforts to address the prior TIGTA recommendation by taking the
necessary actions to obtain the funding necessary for a new system. This would ensure
management had the information needed to track costs associated with AUR Program activities
and to establish baselines.

Recommendations
The Commissioner, W&I Division, should ensure the W&I Division Compliance function’s
annual performance goals and measures directly support and can demonstrate progress in
achieving the long-term performance goals that apply to the Compliance function. The
W&I Division should also take the necessary steps to implement the prior TIGTA
recommendation to capture case review data on the causes for the noted discrepancies and
how the cases were resolved.

Response
IRS management agreed with one of our recommendations and disagreed with the other. When
the IRS long-term goals are finalized, W&I Division management will reassess our first
recommendation. Corrective actions may include modifying the W&I Division’s Concept of
Operations to support accomplishment of appropriate long-term goals.
While IRS management agrees that data on specific discrepancies in AUR Program cases and
how these cases were resolved would be valuable, they do not plan to add closing/reason codes
to the existing AUR Program due to budget constraints which are not likely to change. In
addition, they believe that implementing additional process codes would adversely affect the rate
and volume of cases closed by the AUR Program.

Instead, the IRS will continue to conduct research studies as part of its overall initiative to
improve case scoring and selection methodology. In addition, it will expand the new selection
methodology successfully used in identifying the most productive Earned Income Tax Credit
inventory to all AUR Program inventory. IRS management believes this approach accomplishes
the overall objective of improving the AUR Program and that Program results over the last
5 years, reflecting a 60 percent increase in productivity, indicate their efforts have achieved that
objective. Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
The planned corrective action should improve AUR Program productivity. However, we believe
the Commissioner, W&I Division, should ensure the planned research studies also capture data

                                                                                                   3
                              The Wage and Investment Division
                     Compliance Function Should Link Annual Performance
                       to Long-Term Goals and Improve Data Collection


on what caused the discrepancies and how the cases were resolved. Capturing this data would
provide the W&I Division Compliance function needed data to monitor progress toward
improving voluntary compliance.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Scott Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (925) 210-7027, extension 102.




                                                                                              4
                                      The Wage and Investment Division
                             Compliance Function Should Link Annual Performance
                               to Long-Term Goals and Improve Data Collection




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Wage and Investment Division Compliance Function
          Needs to Incorporate Long-Term Goals Into the Annual
          Planning Process ...........................................................................................Page 4
                    Recommendation 1:..........................................................Page 6

          The Wage and Investment Division Compliance Function
          Does Not Have the Necessary Data to Monitor the
          Automated Underreporter Program’s Progress Toward
          Improving Voluntary Compliance ................................................................Page 6
                    Recommendation 2:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Wage and Investment Division
          Compliance Function Strategic Goals ..........................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
                                   The Wage and Investment Division
                          Compliance Function Should Link Annual Performance
                            to Long-Term Goals and Improve Data Collection




                                            Background

The Wage and Investment (W&I) Division serves approximately 120 million taxpayers.
Through its Compliance function, the W&I Division conducts examinations of individual tax
returns and collects any outstanding taxes due. The W&I Division Compliance function mission
is to fairly and effectively assist taxpayers in the determination and fulfillment of their tax
obligations by providing accurate and consistent application of the tax law and by using a
risk-based approach to exam and collection.
                                       The Government Performance and Results Act of 1993
   “To provide for the establishment   (GPRA)1 was enacted by Congress, in part, to “improve
        of strategic planning and      the confidence of the American people in the capability
    performance measurement in the     of the Federal Government, by systematically holding
        Federal Government ….”         Federal agencies accountable for achieving program
                                       results.” The GPRA was intended to switch the focus of
     The Government Performance
         and Results Act of 1993       Federal Government programs from “staffing” to
                                       “outcomes,” expressed in the real differences Federal
                                       Government agencies make in people’s lives. The
GPRA was created as a guide for improving the efficiency and effectiveness of Federal
Government programs by establishing agency systems operating under a set of long-term goals
focused on program performance and results measurement. The overriding objective was to
improve each agency’s performance and to provide much needed objective information to
Congressional and Executive Branch decision makers to assist them in appropriating and
allocating Federal funds. The law required each executive agency to prepare multi-year strategic
plans, annual performance plans, and performance reports on prior year accomplishments.
The President’s Management Agenda (PMA) was
first issued in Fiscal Year (FY) 2002 and has been      “The American people should be able
an emphasis each year thereafter. The PMA               to see how government programs are
                                                        performing and compare performance
recognized that in the 8 years since the enactment           and cost across programs.”
of the GPRA, agency progress toward the use of
performance information for program management          The President's Management Agenda
was discouraging. Agency performance measures
were recognized as being ill-defined and not properly integrated into agency budget submissions
and in the management and operation of agency programs.



1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 1
                                   The Wage and Investment Division
                          Compliance Function Should Link Annual Performance
                            to Long-Term Goals and Improve Data Collection



The PMA outlined the President’s strategy for improving management and performance in the
Federal Government. It contained five overall Government-wide initiatives and nine
agency-specific goals intended to improve Federal Government management and to deliver
results that matter to the American people. The PMA stressed the need to provide a greater focus
on results-oriented performance management as set forth under the GPRA. Through the strategic
planning process, agencies were expected to identify high quality strategic goals, long-term
performance goals, and outcome measures and to use those goals and measures to accurately
monitor the performance of programs.2 Agencies were also expected to begin integrating the
strategic planning process with budget formulation. The lack of consistent performance
information and a reporting framework for performance, budgeting, and accounting impedes an
agency’s ability to provide meaningful performance reports to Congress and the Executive
Branch. The expected results of focusing on performance management using the strategic
planning process would be better performance; better control over resources used and
accountability for results; better service; and standard, integrated budgeting, performance, and
accounting information.
In 2002, the Performance Assessment Rating Tool (PART) was developed as a process for
                                               assessing individual agency program
   “The PART looks at all factors that affect  performance. The PART contains a series of
  and reflect program performance, including   questions designed to provide a consistent
  program purpose and design, performance
    measurement, evaluations and strategic     approach to rate programs across the Federal
     planning, program management, and         Government. According to the PART,
                program results.”              long-term goals should cover 5-10 years and be
                                               consistent with the periods for the strategic
    The Office of Management and Budget        goals used in the agency’s strategic plan. The
                                               individual programs should also have a limited
number of specific long-term performance measures, with targets and timeframes that focus on
outcomes and meaningfully reflect the purpose of the program.
Taxpayers are responsible for filing returns that report the full amount of taxes owed and paying
any taxes that are due. The Internal Revenue Service (IRS) mission is to provide America’s
taxpayers with top quality service by helping them understand and meet their tax responsibilities
and by applying the tax law with integrity and fairness to all. To help meet this mission, the
IRS’ 2005–2009 Strategic Plan identified its strategic goals to improve taxpayer service, enhance
enforcement of the tax law, and modernize the IRS through its people, processes, and
technology. To enhance enforcement of the tax law, the IRS has established various compliance
programs designed to assure taxpayers fully and accurately report and pay any taxes that are due.


2
  A strategic goal is a general statement of aim or purpose and is required under the GPRA to be included in the
strategic plan. The strategic plan should also set a level of performance for each strategic goal (long-term
performance goals) containing quantitative targets against which actual achievement can be compared. A
performance goal is comprised of a performance measure with targets and timeframes.
                                                                                                             Page 2
                                  The Wage and Investment Division
                         Compliance Function Should Link Annual Performance
                           to Long-Term Goals and Improve Data Collection



The W&I Division’s strategic planning process covers a 2-year period. The W&I Division
Strategy and Program Plan addresses the IRS strategic goals, the applicable budget programs,
and one or more strategic plan objectives supported by the W&I Division base program
activities. The Strategy and Program Plan is updated every year and makes reference to many of
the annual performance goals and measures used in each program. The measures identified are
the current year targets, revisions to the targets if necessary, and the next year’s projected targets.
The W&I Division Strategy and Program Plan is directly linked to the IRS’ Strategic Plan.
This audit was initiated as a follow-up to the two prior reviews3 we completed involving the
PART process. One of our objectives was to determine what steps the W&I Division
Compliance function has taken since our last reviews to develop long-term goals and measures.
During prior reviews of the Compliance function programs, we recommended the
Commissioner, W&I Division, ensure that long-term goals and related measures be developed.
For the Automated Underreporter (AUR) Program4 and the Discretionary Examination Program,
we recommended that the long-term goals be finalized and a consistent method used to measure
progress toward the long-term goals. In response to our prior reports, the Commissioner,
W&I Division, agreed to finalize the long-term goals in the Concept of Operations (ConOps).5
We are also evaluating what progress the W&I Division Compliance function has made in
capturing sufficient information to show what actions resolved completed AUR Program cases
and in identifying costs associated with working cases in specific case categories. During a prior
review, we reported that additional closing codes were needed to explain why cases were
screened out or closed. We also reported that the W&I Division Compliance function had no
way to identify costs associated with working cases. In response, the Compliance function
agreed to partner with the Modernization and Information Technology Services (MITS)
organization to develop a comprehensive management information system.
This audit was performed at the W&I Division Headquarters in Atlanta, Georgia, the Office of
the Chief Financial Officer in Washington, D.C., and the Office of the Chief Information Officer
in Ogden, Utah, during the period October 2004 through September 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.


3
  More Information Is Needed to Determine the Effect of the Automated Underreporter Program on Improving
Voluntary Compliance (Reference Number 2003-40-180, dated August 2003) and More Information Is Needed to
Determine the Effect of the Discretionary Examination Program on Improving Service to All Taxpayers (Reference
Number 2003-40-185, dated August 2003).
4
  The IRS’ annual matching program used to identify taxpayers that misreport their income. The AUR Program
compares the information reported by third parties, such as employers and banks, with what was reported by
taxpayers on their individual income tax returns.
5
  The ConOps is a framework that includes a defined vision, strategic goals, operational themes, and program
capabilities. It identifies key organizational concepts required to achieve the organization’s vision.
                                                                                                       Page 3
                                  The Wage and Investment Division
                         Compliance Function Should Link Annual Performance
                           to Long-Term Goals and Improve Data Collection




                                      Results of Review

The Wage and Investment Division Compliance Function Needs to
Incorporate Long-Term Goals Into the Annual Planning Process
The W&I Division Compliance function reported that it had completed actions on the prior
Treasury Inspector General for Tax Administration (TIGTA) reports by including
long-term strategic goals in its ConOps.6 However, these long-term strategic goals were never
directly linked to the W&I Division’s operational priorities supporting the IRS strategic goals
outlined in the W&I Division FY 2005–2006 Strategy and Program Plan. As designed, the
Strategy and Program Plan did not address the strategic goals identified in the ConOps or any
other long-term goals established specifically for the W&I Division or its Compliance function.
In addition, the ConOps long-term strategic goals were not used by management when they set
annual performance goals and measures used within the Compliance function programs in
FY 2005.
In the Fall of 2004, the Office of the Chief Financial Officer (CFO) initiated efforts to develop
overall long-term IRS performance goals to directly support its mission and strategic goals as set
forth in the IRS’ 2005–2009 Strategic Plan. The intent was to set one or two long-term
performance goals for each of the eight budget programs.7 As part of this process, the
W&I Division submitted supporting program information for the draft IRS long-term goals
affecting its programs, including the Compliance function. The IRS has committed to publish
long-term performance goals as an amendment to the published IRS’ 2005–2009 Strategic Plan.
W&I Division management is waiting approval of the proposed long-term goals before
incorporating them into the annual strategic planning process.
Under the GPRA and the PART, agencies are expected to develop annual performance plans8
and to follow those plans toward the accomplishment of the overall long-term performance goals
set for the agency. The purpose is to develop an organizational strategy focused on
results-oriented management. The GPRA requires that strategic plans identify long-term
performance goals, outline strategies to achieve those goals, and develop annual program goals
and measures to demonstrate the results of their activities. The strategic planning process should


6
  The corrective actions were completed on the AUR Program and the Discretionary Exam Program reports
identified in footnote 3 in July 2004 and December 2004, respectively.
7
  The IRS’ eight budget programs are: Assistance, Outreach, Processing, Examination, Collection, Investigation,
Regulatory Compliance, and Research.
8
  The W&I Division’s annual performance plan is the W&I Strategy and Program Plan.
                                                                                                          Page 4
                               The Wage and Investment Division
                      Compliance Function Should Link Annual Performance
                        to Long-Term Goals and Improve Data Collection



accurately guide and monitor the W&I Division Compliance function’s progress in meeting
long-term goals through annual performance goals and measures.
                              Chart 1: IRS Strategic Planning


   Strategic Plan               Long-Term                 Annual                Program
   Goals & Objectives           Performance                  Performance        Activities
                                Goals                        Goals              & Budget
   (IRS Mission)              (Outcome Measures)      (Business Measures)

 Source: CFO’s Draft Long-Term Performance Goals Guidance.

For the FY 2005–2006 strategic planning process, the W&I Division followed the format
provided by the CFO for preparing the Strategy and Program Plan. The format focused on the
IRS’ strategic goals, but did not require the W&I Division to identify and address long-term
program goals as required under the GPRA. Historically, W&I Division Compliance function
management developed annual performance goals and measures, adjusting for priorities, without
focusing specifically on long-term goals. The Compliance function’s focus was on general
operational themes established in the ConOps. However, these operational themes were not
specifically related to the accomplishment of the long-term goals. The annual performance goals
and measures were the principle means by which the Compliance function measured the annual
success of its programs.
In response to our last report, the W&I Division agreed to finalize the long-term goals and
establish a consistent method to measure progress toward accomplishing the long-term goals.
While the W&I Division reported that this action was complete, our review of the final version
of the ConOps showed that the strategic goals were not linked to the annual performance goals
and measures. The Director, Compliance, stated that the ConOps’ strategic goals were merely
“targets” for the Compliance function to strive toward, but expectations for attainment were
“fluid” and the long-term strategic goals were subject to change. We were informed that the
purpose of the strategic goals was to ensure that W&I Division Compliance function programs
are on the same track and going in the same direction.
We believe that when the long-term performance goals are finalized, the Compliance function
will need to directly link its annual performance goals and measures to the appropriate long-term
performance goals. This will demonstrate annual progress in meeting the long-term performance
goals. It will also help determine whether the annual performance goals and measures are on
track and, if not, help identify and correct deficiencies in the strategic planning of the program.
Without this link, the W&I Division Compliance function will not have an established
foundation from which they can demonstrate results-oriented management in achieving the
long-term goals. Aligning programs to the appropriate long-term performance goals makes it
easier to demonstrate progress and improvement in programs over time. Long-term performance

                                                                                             Page 5
                                 The Wage and Investment Division
                        Compliance Function Should Link Annual Performance
                          to Long-Term Goals and Improve Data Collection



goals help managers see the big picture of where a program is headed and how it is integrated
and aligned to budget and performance. In addition, under the PMA if a program can not
demonstrate continued performance in accomplishing an agency’s long-term performance goals,
future funding could come into question.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should ensure the W&I Division
Compliance function’s annual performance goals and measures directly support and can
demonstrate progress in achieving the long-term performance goals that apply to the Compliance
function.
        Management’s Response: IRS management agreed with this recommendation.
        When the IRS long-term goals are finalized, W&I Division management will reassess
        this recommendation. Corrective actions may include modifying the W&I Division’s
        ConOps to support accomplishment of appropriate long-term goals.

The Wage and Investment Division Compliance Function Does Not
Have the Necessary Data to Monitor the Automated Underreporter
Program’s Progress Toward Improving Voluntary Compliance

The AUR Program does not have sufficient information to address the causes for
discrepancies
In August 2003, we reported9 that the AUR Program data did not capture what caused the
identified discrepancies and how they were resolved. New closing/reason codes could explain
why a case was screened out or closed; for example, the taxpayer misinterpreted the tax law and
claimed an erroneous credit or deduction, when an IRS document was missing from the case file,
or the taxpayer provided additional information that was not provided on the return.
The Compliance function has yet to implement the suggested AUR Program data changes to
capture information on what caused the discrepancies and how they were resolved. However, in
response to another TIGTA report in July 2005,10 the Compliance function did take action to
establish three new closing codes for taxpayers whose social security numbers were
compromised. This would allow the Compliance function to track and monitor cases resulting
from identity theft.


9
  More Information Is Needed to Determine the Effect of the Automated Underreporter Program on Improving
Voluntary Compliance (Reference Number 2003-40-180, dated August 2003).
10
   A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft (Reference Number
2005-40-106, dated July 2005).
                                                                                                      Page 6
                                  The Wage and Investment Division
                         Compliance Function Should Link Annual Performance
                           to Long-Term Goals and Improve Data Collection



To establish long-term goals and measures, W&I Division Compliance function management
needs meaningful outcome data from which to analyze and measure the AUR Program’s
progress toward improving voluntary compliance. A recent Government Accountability Office
report11 recognized that
        “… [while] IRS is developing a system intended to capture better
        examination data, IRS does not have firm or specific plans to develop
        better data on the reasons for noncompliance, even though the lack of
        such data makes it harder to decide whether it should address areas of
        noncompliance through nonenforcement efforts, such as designing clearer
        forms or publications, or enforcement efforts.”
The National Taxpayer Advocate testified12 that
        “… all we (IRS) know about noncompliant taxpayers is the nature of
        their noncompliance, not the underlying reasons for it. We know whether
        taxpayers are nonfilers, or underreporters, or nonpayers. If we don’t
        understand the reasons for noncompliance, we run the risk of a shotgun
        approach. We may hit someone with serious enforcement actions when a
        less drastic approach might work and might have better long-term
        compliance effects.”
Knowing whether taxpayers are unintentionally or intentionally noncompliant with specific tax
provisions is critical to the IRS for deciding whether its efforts to address specific areas of
noncompliance should focus on nonenforcement or enforcement activities. Establishing
meaningful closing/reason codes is the key to this type of analysis.
Although the W&I Division Compliance function did not establish needed closing/reason codes
to capture the causes for discrepancies and how the cases were resolved, it did focus on
enhancing the inventory selection process to reduce the number of screened out cases and
improve case assessments. For example, in FY 2004, the AUR Program reported it closed
approximately 2.1 million cases; the breakdown of case closures is depicted in Chart 2.




11
   TAX COMPLIANCE: Better Compliance Data and Long-Term Goals Would Support a More Strategic IRS
Approach to Reducing the Tax Gap (GAO-05-753, dated July 2005).
12
   Statement of Nina E. Olson, National Taxpayer Advocate, before the United States Senate Committee on Finance
on the Tax Gap, April 14, 2005.
                                                                                                        Page 7
                                 The Wage and Investment Division
                        Compliance Function Should Link Annual Performance
                          to Long-Term Goals and Improve Data Collection



                        Chart 2: FY 2004 AUR Program Closed Cases
                                 Screened Out
                                     32%
                                                                               Defaulted
                                                                                 21%




                              Screen
                           Assessments
                                1%


                                                                               No Change
                                Agreements                                        13%
                                   32%
                                                                       Other
                                                                        1%

                  Source: AUR Closures by Disposition (August 2005).
       [Definitions: Screened Out – Discrepancy was resolved during the screening process (no contact with the
       taxpayer). Agreements – taxpayers agreed to the additional assessments. Defaulted – IRS issued a
       statutory notice of deficiency to taxpayers who did not respond to the additional assessment. Screen
       Assessments –assessments identified during the screening process.]

In FY 2005, the AUR Program reported that it had successfully reduced the screened out rate to
24 percent for the 10-month period ending in July 2005. While this effort by itself may have
been effective in identifying more productive cases to work, it still does not address the reasons
why these taxpayers were noncompliant.
In its 2005–2009 Strategic Plan, the IRS recognized that noncompliance may not be deliberate
and can stem from a wide range of causes, including lack of knowledge, confusion, poor record
keeping, differing legal interpretations, unexpected personal emergencies and temporary cash
flow problems. However, some noncompliance is willful, even to the point of criminal tax
evasion. Knowing this information could help Compliance function management identify what
IRS processing or systemic change might eliminate or reduce future discrepancies or identify
opportunities to educate taxpayers on how to avoid discrepancies and report income and
deductions correctly. Compliance function management also needs this information to establish
baselines to measure the AUR Program’s progress toward improving voluntary compliance.
However, the W&I Division did not take the necessary steps to add the needed closing/reason
codes to the existing AUR Program data information system to capture the causes of identified
discrepancies and how the cases were resolved. While there was agreement under our prior
audit, the W&I Division now believes that requiring the input of additional codes would be an
unacceptable burden on the case reviewers.
In our opinion, the addition of closing/reason codes would be beneficial. Having the additional
noncompliant data could help with the ongoing enhancement of the AUR Program case selection

                                                                                                                 Page 8
                               The Wage and Investment Division
                      Compliance Function Should Link Annual Performance
                        to Long-Term Goals and Improve Data Collection



process, resulting in improved assessments in subsequent years. The additional codes would also
help to identify noncompliant situations where alternative nonenforcement actions could possibly
improve voluntary compliance. Until the causes for the noncompliant activity are identified,
documented, evaluated, and addressed, the noncompliant activities will persist.

Recommendation
Recommendation 2: The Commissioner, W&I Division, should implement the agreed
corrective action of adding closing/reason codes to the existing AUR Program data information
system to capture data on what caused the discrepancies and how the cases were resolved.
Capturing this data will allow the W&I Division Compliance function to monitor progress
toward improving voluntary compliance.
       Management’s Response: While IRS management agrees that data on specific
       discrepancies in AUR Program cases and how these cases were resolved would be
       valuable, they do not plan to add closing/reason codes to the existing AUR Program due
       to budget constraints which are not likely to change. In addition, they believe that
       implementing additional process codes would adversely affect the rate and volume of
       cases closed by the AUR Program.
       Instead, the IRS will continue to conduct research studies as part of its overall initiative to
       improve case scoring and selection methodology. In addition, it will expand the new
       selection methodology successfully used in identifying the most productive Earned
       Income Tax Credit inventory to all AUR Program inventory. IRS management believes
       this approach accomplishes the overall objective of improving the AUR Program and that
       Program results over the last 5 years, reflecting a 60 percent increase in productivity,
       indicate their efforts have achieved that objective.
       Office of Audit Comment: The planned corrective action should improve AUR
       Program productivity. However, we believe the Commissioner, W&I Division, should
       ensure that the planned research studies also capture data on what caused the
       discrepancies and how the cases were resolved. Capturing this data would provide the
       W&I Division Compliance function needed data to monitor progress toward improving
       voluntary compliance.

The AUR Program does not identify costs associated with working cases by
category
In August 2003, we reported that the AUR Program was able to capture the yield from cases by
category but could not identify the costs associated with working cases in each category.
Therefore, management did not know if it cost more to work some cases than others, or if the
cost to work those cases exceeded the expected yield. We stated that cost should be a factor
considered when selecting cases to work.

                                                                                              Page 9
                               The Wage and Investment Division
                      Compliance Function Should Link Annual Performance
                        to Long-Term Goals and Improve Data Collection



                                 Since the current management information system is unable to
  Management’s plan was to       capture the costs associated with working cases, the Compliance
  develop a comprehensive        function responded to our report stating that it planned to
  Management Information         partner with the MITS organization to develop a comprehensive
          System.
                                 management information system. The W&I Division
                                 Compliance function was to have the new management
information system in place to identify outcome measures and accurately monitor the overall
performance of the AUR Program by June 30, 2006.
However, while the Compliance function initiated efforts toward addressing its management
information system needs, it is doubtful that the established milestone date will be met. In
October 2004, the MITS organization had two vendors present systems that might be used to
meet the needs of the AUR Program. The Chief, AUR, and the MITS Chief, AUR Section,
informed us that the desired system would provide the W&I Division Compliance function with
enhanced capabilities to track closing actions, manage and direct the inventory, identify the most
productive cases, and identify costs related to working cases. The MITS organization, with the
assistance of the W&I Division Compliance function, also developed a “white paper” which
outlined the justification for the needed system. However, Compliance function officials
informed us that, under existing funding levels, the recommended system was considered cost
prohibitive, with an initial cost of $2.2 million and $340,000 each year thereafter for the annual
software renewal.
In our August 2003 report, we recommended that the W&I Division improve the AUR Program's
current management information system to capture data sufficient to establish baselines and to
measure performance against long-term measures and goals. The PMA directed Federal
Government agencies to not only identify high quality outcome goals and measures, but also to
establish needed baselines and accurately monitor program performance against the established
long-term goals and measures. The PART also required agencies to choose performance
measures that meaningfully reflect the mission of the program, not merely ones for which there
are data. In addition, agencies were also to begin integrating program performance into the
budget process by identifying associated program costs.
At this time, we are not making an additional recommendation as an outstanding
recommendation exists to develop a comprehensive management information system. As such,
the W&I Division Compliance function should continue its efforts to address the prior TIGTA
recommendation by taking the necessary actions to obtain the funding necessary for the new
system. The Compliance function will not be able to determine the actual costs associated with
working cases until its system needs are met. Since some cases cost more to work than others
and the cost to work certain cases can exceed the expected yield, we believe cost would be a
major factor when selecting cases to work. Since the Compliance function does not have the
resources necessary to work all cases, cost data are important to effectively prioritize case
selections.

                                                                                          Page 10
                                  The Wage and Investment Division
                         Compliance Function Should Link Annual Performance
                           to Long-Term Goals and Improve Data Collection



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Wage and Investment (W&I)
Division Compliance function has taken actions in response to previous Treasury Inspector
General for Tax Administration reports by developing long-term goals and related measures.
To accomplish our objective, we:
I.      Determined if the Compliance function had complied with the intent of the Government
        Performance and Results Act of 1993,1 the President’s Management Agenda, and the
        Performance Assessment Rating Tool criteria by establishing long-term goals to promote
        continued improvement toward meeting its overall mission of fairly and effectively
        assisting taxpayers in the determination and fulfillment of their tax obligations.
II.     Determined if each Compliance function long-term goal had annual performance
        measures to help demonstrate progress in achieving the goal. To make this assessment,
        we evaluated the W&I Division Compliance function’s Automated Underreporter (AUR)
        Program,2 Discretionary Examination Program, and Compliance Services Collection
        Operations Program.
III.    Evaluated the Compliance function’s progress towards taking corrective actions and
        establishing baselines for long-term goals and measures by following up on the two
        major findings identified in a previous AUR Program audit report.3 Specifically, we
        determined management’s progress toward:
        A. Capturing sufficient information to show what actions resolved completed
           AUR Program cases.
        B. Identifying costs associated with working AUR Program cases within each specific
           case category.




1
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
2
  The Internal Revenue Service’s annual matching program used to identify taxpayers that misreport their income.
The AUR Program compares the information reported by third parties, such as employers and banks, with what was
reported by taxpayers on their individual income tax returns.
3
  More Information Is Needed to Determine the Effect of the Automated Underreporter Program on Improving
Voluntary Compliance (Reference Number 2003-40-180, dated August 2003).

                                                                                                        Page 11
                              The Wage and Investment Division
                     Compliance Function Should Link Annual Performance
                       to Long-Term Goals and Improve Data Collection



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs)
Mary V. Baker, Director
James O’Hara, Audit Manager
Kenneth Carlson, Acting Audit Manager
Gwendolyn M. Green, Lead Auditor
James M. Traynor, Senior Auditor
Lynn M. Ross, Auditor




                                                                                         Page 12
                            The Wage and Investment Division
                   Compliance Function Should Link Annual Performance
                     to Long-Term Goals and Improve Data Collection



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE: W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Filing & Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief Financial Officer OS:CFO
   Chief Information Officer OS:CIO
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 13
                              The Wage and Investment Division
                     Compliance Function Should Link Annual Performance
                       to Long-Term Goals and Improve Data Collection



                                                                                 Appendix IV

                Wage and Investment Division
              Compliance Function Strategic Goals

The strategic goals listed in the Wage and Investment Division Compliance function Concept of
Operations were:
   •   Strategically select cases most appropriate for available resources and identify delivery
       mechanisms to get those cases to the employees’ integrated desktop in the most efficient
       manner.
   •   One hundred percent of employees have access to 100 percent of the information they
       need.
   •   Improve identification of noncompliant taxpayers and improve selection of noncompliant
       cases to work.
   •   By year Y, more than X percent of taxpayers are in full compliance.
   •   Increase by 50 percent the number of taxpayers who can come into full compliance via
       self-assist and/or self-correct by 2007.
   •   Resolve compliance issues within the current tax year by 2012.
   •   Fifteen percent of compliance issues can be handled systemically, without human
       interaction, by 2012.
   •   Eighty percent of compliance issues not handled automatically are resolved with first
       human contact.
   •   Improve overall employee satisfaction score to 75 percent.
   •   X percent of taxpayers are satisfied with the timeliness, accuracy, professionalism, and
       quality of their interactions with the Compliance function.
   •   By 2007, all Compliance function processes and systems employ quality management
       mechanisms.




                                                                                          Page 14
               The Wage and Investment Division
      Compliance Function Should Link Annual Performance
        to Long-Term Goals and Improve Data Collection



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 15
         The Wage and Investment Division
Compliance Function Should Link Annual Performance
  to Long-Term Goals and Improve Data Collection




                                                 Page 16
         The Wage and Investment Division
Compliance Function Should Link Annual Performance
  to Long-Term Goals and Improve Data Collection




                                                 Page 17
         The Wage and Investment Division
Compliance Function Should Link Annual Performance
  to Long-Term Goals and Improve Data Collection




                                                 Page 18
